—
LN

=. COCKE

Omaha, Nebraska 68102-1214 Legal B ba, fs
st. 1923

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

E-Mail Address:
contact@cocklelegalbriefs.com

No. 19-798

BAY POINT PROPERTIES, INCORPORATED,
Petitioner,
Vv.
MISSISSIPPI TRANSPORTATION COMMISSION
AND MISSISSIPPI DEPARTMENT
OF TRANSPORTATION; et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 4044 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 20th day of February, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
Site of Nebraska LE & Qudrao- bh.
My Commission Expires Nov 24, 2020 a

Notary Public Affiant 39259

 

 
